July 23, 2008

TOM A. SAMRA
VICE PRESIDENT, FACILITIES

SUBJECT: Audit Report – Leased Facility Maintenance Responsibility in the Great
         Lakes Area (Report Number SA-AR-08-008)

This report presents the results of our audit of Leased Facility Maintenance
Responsibility in the Great Lakes Area (Project Number 08YG009SA000). This is one
in a series of audits we are conducting to determine if the U.S. Postal Service is
incurring costs for maintaining leased facilities for which the lessor is actually
responsible. We conducted this self-initiated audit based on operational risks we
identified during the Facilities Single Source Provider (FSSP) system audit regarding
lessor responsible maintenance and repairs. Click here to go to Appendix A for
additional information about this audit.

Conclusion

We determined the Postal Service is incurring costs for maintaining leased facilities for
which the lessor is responsible. Specifically, the Great Lakes Facilities Service Office
(FSO) does not have an effective process for recouping lessor responsible maintenance
and repair costs. As a result, the Postal Service was not reimbursed for all
maintenance and repair work they performed at leased Postal Service facilities. In
addition, we were unable to determine the exact number of lessor responsible repairs
the Postal Service paid for in fiscal years 2006 and 2007, because there was no way to
identify all lessor responsible repairs in the FSSP system. The Postal Service
implemented a new Landlord Maintenance Module within the FSSP system in May 2008
to make the lessor enforcement process more consistent and to reduce errors in the
future.1

Reimbursement for Lessor Responsible Repairs

The Postal Service did not pursue reimbursement for many maintenance and repair
costs that were the responsibility of the lessor. Specifically, of the 90 projects reviewed
for the Great Lakes Area, the Postal Service completed 43 projects that were the
responsibility of the lessor. Further, the Postal Service did not collect reimbursements
for 27 of the 43 projects. This occurred because Facilities management has not
developed written policies and procedures to adequately identify, track, and recoup
1
    The audit team did not evaluate the new Landlord Maintenance Module in the FSSP system.
Leased Facility Maintenance Responsibility                                               SA-AR-08-008
 In the Great Lakes Area


costs incurred by the Postal Service for performing maintenance and repairs that are
the responsibility of the lessor.2

In addition, we determined that Customer Service Representatives (CSRs) who input
the FSSP project calls were inconsistent in how they identified who was responsible for
a facility maintenance or repair project.3 When the responsible party is not correctly
identified in the FSSP system, the Postal Service may make repairs that are the
responsibility of the lessor and the lessor may not have the opportunity to perform
maintenance and repairs for which they are responsible. Further, it becomes more
difficult for the Postal Service to collect reimbursements when they have performed
lessor responsible maintenance or repairs.

We identified a total of $117,111 that the Postal Service has not collected for lessor
responsible repairs. Specifically, we are reporting unrecoverable questioned costs
totaling $54,486 and recoverable questioned costs totaling $62,625. We could not
determine the monetary impact associated with the Facilities Maintenance Office (FMO)
completing lessor responsible repairs because the FSSP system does not record the
labor and materials costs the FMO incurs.

Click here to go to Appendix B for our detailed analysis of this issue.

We recommend the Vice President, Facilities, in coordination with the Great Lakes
Facilities Service Office:

1. Strengthen its policies and procedures to ensure tracking and reimbursement of
   expenses incurred by the Postal Service for performing lessor responsible
   maintenance and repairs. Policies and procedures should include, at a minimum:

        •   A requirement for consistent identification of lessor responsible maintenance
            and repairs in the Facilities Single Source Provider system.

        •   Procedures to ensure real estate specialists notify the lessors of maintenance
            and repairs for which they are responsible.

        •   Procedures for monitoring the status of calls assigned to Design and
            Construction to ensure reimbursement when repairs are complete.

        •   Procedures to ensure lessor responsible maintenance and repairs are not
            being performed by the Facilities Maintenance Office.


2
  In our May 20, 2008, meeting with Great Lakes FSO management, they stated they had written procedures for the
lessor enforcement process. We requested copies of the procedures, but management had not provided them as of
the date of this report.
3
  According to FSO management, they have experienced turnover in the CSR position and CSRs have difficulty
interpreting lease agreements. As a result, the CSRs made mistakes when identifying maintenance responsibility.




                                                       2
Leased Facility Maintenance Responsibility                             SA-AR-08-008
 In the Great Lakes Area


Management’s Comments

Management agreed with the finding and recommendation. The Facilities organization
deployed new FSSP system enhancements to better identify and manage work that is
the responsibility of the landlord. The new module increases tracking, monitoring, and
follow-up of lessor enforcement issues. We have included management’s comments, in
their entirety, in Appendix D.

Management disagreed with the conclusion that the Great Lakes FSO does not have a
sufficient process for recouping lessor responsible maintenance and repair costs,
stating that training manuals document the process. Management acknowledged prior
inconsistencies in the lessor enforcement process; however, they attribute those issues
primarily to turnover in staff and the lack of visible problems in the application.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management's
comments responsive to the recommendation and the actions taken should correct the
issue identified. While management disagreed with the conclusion, they acknowledged
inconsistencies in the process and believe recent changes to the FSSP system should
solve those issues.

We recommend the Vice President, Facilities:

2. Require the Great Lakes Facilities Service Office to collect the $62,625 in
   recoverable supported questioned costs.

Management’s Comments

Management agreed with the finding and recommendation to collect recoverable costs
but disagreed with our originally calculated amount of $80,974. The Great Lakes FSO
stated — and subsequently provided documented support for — the recoverable
amount of $62,625 and has, to date, collected $10,650. They estimate recovering the
remainder by the end of December 2008.

Evaluation of Management’s Comments

On July 10, 2008, management provided the OIG with additional documentation
showing the recoverable amount was actually $62,625. We validated the
documentation as complete and accurate, so we have revised the amount accordingly
and will report $62,625 in recoverable questioned costs, along with $54,485 in
unrecoverable questioned costs, in our Semiannual Report to Congress.

The OIG considers both recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when




                                             3
Leased Facility Maintenance Responsibility                            SA-AR-08-008
 In the Great Lakes Area


corrective action is completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions, or need additional information, please contact Andrea L. Deadwyler, Director,
Inspection Service and Facilities, or me at (703) 248-2100.


 E-Signed by Darrell E. Benjamin, Jr
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachment

cc:     Sharad Shrestha
        Katherine S. Banks




                                             4
                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Facilities is an enabling organization within the U.S. Postal Service whose primary
mission is to (1) provide quality real estate and facilities products and services to meet
present and future needs of Postal Service organizations and (2) realize optimum value
from facilities assets and transactions. Facilities is headquartered in Arlington, Virginia,
and has eight Facilities Service Offices (FSOs) throughout the country.

Lease management occurs at the FSO level and duties include monitoring and
enforcement of lease provisions; acting as liaison for lessors on improvement projects;
and providing support to postmasters and installation heads when issues occur
concerning the maintenance of leased facilities.

Administrative Support Manual, Chapter 13, Section 5, explains that leases or rental
agreements specify the lessor’s obligations for repairs and maintenance. Typically, the
agreements require the owners to keep the premises and all the equipment they furnish
in good tenantable condition, except when a Postal Service agent or employee causes
damage.

Per MS-110,4 the Real Estate department of the FSO should be familiar with lease
provisions and understand the respective responsibilities of the Postal Service and
lessor to ensure that Postal Service money is not spent on work that is the lessor’s
responsibility. In addition, the Contracting Officer at the FSO will make the final
decision on whether the repair costs the Postal Service incurs for repairs for which the
lessor is responsible (with or without administrative expenses) are deducted from future
rents due the lessor.

The maintenance rider in Postal Service leases states that if the lessor does not make
the repairs within the timeframe the Postal Service stipulates (provided it is a
reasonable timeframe) the Postal Service can perform the work by contract or otherwise
and withhold the cost of such work (which may include administrative costs and interest)
from payments due.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to determine if the Postal Service is incurring costs for
maintaining leased facilities that are the responsibility of the lessor. To accomplish this
objective, we reviewed documentation and applicable policies and procedures and


4
    Maintenance Series (MS)-110, Associate Office Postmasters Facility Maintenance Guidelines.
  Leased Facility Maintenance Responsibility                                      SA-AR-08-008
   In the Great Lakes Area


  examined any other material deemed necessary to accomplish our audit objective. We
  also visited Postal Service facilities and interviewed managers and employees.

  We conducted this performance audit from November 2007 through July 2008 in
  accordance with generally accepted government auditing standards and included such
  tests of internal controls as we considered necessary under the circumstances. Those
  standards require that we plan and perform the audit to obtain sufficient, appropriate
  evidence to provide a reasonable basis for our findings and conclusions based on our
  audit objective. We believe that the evidence obtained provides a reasonable basis for
  our findings and conclusions based on our audit objective. We discussed our
  observations and conclusions with management officials on May 20, 2008, and included
  their comments where appropriate. We used computer-generated data from Postal
  Service systems such as the FSSP system and data provided by the OIG’s Computer
  Assisted Assessment Techniques Staff to pull our sample items. We verified the items
  with documentation the FSO provided, and are not aware of any limitations in the
  reliability of computer-generated data supporting the audit findings.

  PRIOR AUDIT COVERAGE

                                     Report    Monetary
Report Title   Report Number          Date      Impact                       Report Results
                                                          The report identified opportunities for the Postal
                                                          Service to reduce costs associated with facility
Postal                                                    repair and alteration by taking a more proactive
Service                                                   approach. The report also identified accounting
Facilities                           May 14,              issues, including two leased facility repair expenses
                CA-AR-07-003                   $22,396
Maintenance                           2007                that the Postal Service did not recoup from the
and Repair                                                lessor through rental deductions. The OIG made
Costs                                                     three recommendations to improve maintenance,
                                                          repair and alteration procedures and management
                                                          concurred with the findings and recommendations.




                                                  6
Leased Facility Maintenance Responsibility                                            SA-AR-08-008
 In the Great Lakes Area



                              APPENDIX B: DETAILED ANALYSIS

Reimbursement for Lessor Responsible Repairs

The Postal Service did not pursue reimbursement for many repair and maintenance
costs that were the responsibility of the lessor. Specifically, of the 90 projects reviewed
for the Great Lakes Area, the Postal Service completed 43 projects that were the
responsibility of the lessor, and did not collect reimbursements for 27 of them. For
example:

    •   Two projects were not identified as the responsibility of the lessor in FSSP.

    •   For 16 projects, the FSO did not ensure notification letters were sent to the lessor
        informing them that the required maintenance or repair was their responsibility.

    •   For three projects, the Design and Construction (D&C) project managers did not
        notify real estate specialists that projects were complete or provide them with
        paid invoices so the reimbursement process could begin. Similarly, the real
        estate specialists did not adequately monitor calls sent to D&C for completion.

    •   The FMO completed one project and the Postal Service did not recoup the repair
        expenses.5

This occurred because facilities management has not developed written policies and
procedures to adequately identify, track, and recoup costs incurred by the Postal
Service for performing maintenance and repairs that are the responsibility of the lessor.
However, Great Lakes FSO management provided the following information regarding
their local lessor enforcement process:

    •   The lessor enforcement process identifies lessor enforcement repairs in the
        Problem Detail Report of the FSSP problem screen.

    •   The lessor enforcement process requires written notification to the lessor of the
        necessary repair once it has been determined that the repair is the responsibility
        of the lessor. The lease for each facility identifies maintenance or repairs for
        which the lessor is responsible and may indicate specific items for which the
        Postal Service is responsible.




5
  We are reviewing this issue in more detail in our audit of Maintenance. When the FMO performs a
repair and it is not included in FSSP, the Postal Service cannot track the repair. With regard to lessor-
responsible repairs, the Postal Service cannot recoup the cost of a repair if it was not included in the
FSSP system.




                                                     7
Leased Facility Maintenance Responsibility                                SA-AR-08-008
 In the Great Lakes Area


    •   If the lessor fails to respond to the first letter, the Postal Service provides a
        second letter informing the lessor that, due to their inaction, the Postal Service
        will make the repair and seek reimbursement once the repair is complete.

    •   D&C then receives the repair project and a Project Manager will contract out the
        repair work, manage the repair, and ensure the scope of the work is complete.
        Under no circumstances are lessor enforcement projects to be assigned to the
        FMO for completion. Once it is complete, to include payment of the invoice, the
        D&C Project Manager will reassign the call to the Real Estate department, and
        forward all documentation to the real estate specialist, so the collection process
        can begin.

    •   The Postal Service sends a third letter to the lessor informing them of the cost of
        the repairs, instructing them to remit a check, and advising them the Postal
        Service will deduct the costs from future rent payments if necessary. If the
        Postal Service receives no payment 30 days after the third letter, it will send a
        fourth and final letter to the lessor notifying them that it will deduct the repair
        costs from future rent payments.

    •   The Real Estate department is supposed to communicate any impending repairs
        when renewing leases or during the sale of a leased facility in order to ensure
        reimbursement.

In addition, we found that CSRs who input the FSSP project calls were inconsistent in
how they identified who was responsible for a facility maintenance or repair project.
Management personnel stated they felt CSRs made these mistakes based on the high
turnover of employees in the CSR position as well as the difficulty of interpreting lease
agreements. When the responsible party is not correctly identified in FSSP, the Postal
Service makes repairs that are the responsibility of the lessor and the lessor does not
receive timely notification of the required repair. As a result, the lessor does not get the
opportunity to perform maintenance and repairs they are responsible for and it becomes
more difficult for the Postal Service to collect reimbursements when they have
performed lessor responsible maintenance or repairs.

We identified a total of $117,111 the Postal Service has not collected in reimbursements
for lessor responsible repairs. Specifically, we are reporting unrecoverable questioned
costs totaling $54,486 and recoverable questioned costs totaling $62,625. We could
not determine the monetary impact associated with the FMO completing lessor-
responsible repairs because the FSSP system does not record the labor and materials
costs incurred by the FMO.




                                              8
Leased Facility Maintenance Responsibility                                SA-AR-08-008
 In the Great Lakes Area


                             APPENDIX C: QUESTIONED COSTS

              Number of
             Transactions                      Description               Amount
                  11              Recoverable Questioned Costs            $62,625
                                  (repair costs that were not recouped
                                  from the lessor)
                   15             Unrecoverable Questioned Costs          $54,486
                                  (repair costs that cannot be
                                  recouped from the lessor)

                   26             TOTAL                                  $117,111




                                                9
Leased Facility Maintenance Responsibility                  SA-AR-08-008
 In the Great Lakes Area


                        APPENDIX D. MANAGEMENT’S COMMENTS




                                             10
Leased Facility Maintenance Responsibility        SA-AR-08-008
 In the Great Lakes Area




                                             11
Leased Facility Maintenance Responsibility        SA-AR-08-008
 In the Great Lakes Area




                                             12
Leased Facility Maintenance Responsibility        SA-AR-08-008
 In the Great Lakes Area




                                             13
